No. 19-868
IN THE SUPREME COURT OF THE UNITED STATES
AARON MINER AND DENNIS LAURANCE,
Petitioners,
v.
STEVEN L. PICATTI,
Respondent.
CERTIFICATE OF SERVICE
I, Adina H. Rosenbaum, a member of the bar of this Court, hereby certify that
per the Court’s April 15, 2020 order and the parties’ agreement to accept electronic
service, a true and correct copy of Respondent’s Brief in Opposition in the abovecaptioned case was sent via e-mail to the following counsel:
Erica Jeannine White
Ada County Deputy Prosecuting Attorney
200 W. Front Street, Room 3191
Boise, Idaho 83702
(208) 287-7700
ewhite@adacounty.id.gov
Counsel for Petitioners
I further certify that all parties required to be served have been served.
Executed May 15, 2020.

Adina H. Rosenbaum
Public Citizen Litigation Group
1600 20th St. NW
Washington, DC 20009
(202) 588-1000
arosenbaum@citizen.org
Counsel for Respondent

